No. 19A
IN THE SUPREME COURT OF THE UNITED STATES
JON ERIC SHAFFER,
Applicant,
V.

COMMONWEALTH OF PENNSYLVANIA,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FI LE A PETITION FOR A WRIT OF CERTIORARI

AlviiR H.

ALI
Counsel of Record
RODERICK & SOLANGE
MACARTHUR J USTICE CENTER
777 6th Street NW, 11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurj ustice.org

Counsel for Applicant Jon Eric Shaffer

August 23, 2019

IN THE SUPREME COURT OF THE UNITED STATES

JON ERIC SHAFFER,

Applicant,

v.
COMMONWEALTH OF P ENNSYLVANIA,

Respondent.

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
To the Honorable SamuelA. Alito, Jr., Associat e Justice of t h e Supreme Court
of the United States and Circuit Justice for th e Third Circuit:
Pursuant to t his Court's Rules 13.5, 22, and 30.3, Applicant Jon Eric Shaffer
requests a 30-day extension of time to file a petition for a writ of certiorari to review
the judgment of t he Supreme Court of Pennsylvania in t his case, to October 16, 2019.
As discussed herein, t his case involves an exceptionally importa nt question of
federal constitutional law concerning the validity and scope of the "private search"
exception to the Fourth Amendment. Applicant requests this exte nsion because he
only recently retained Counsel of Record Amir H . Ali to represent him pro bono before
t his Court. Mr. Ali has several substant ial briefing deadlines, oral arguments, and a
vacation during the relevant period and requires addition al time to research the
factual record and to con duct the level of analysis that aids this Court in determining
whether to grant certiorari.

1

In support of this request, Applicant states as follows:
1.

The Pennsylvania Supreme Court issued its opinion on June 18, 2019.

See Commonwealth v. Shaffer, 209 A.3d 957 (Pa. 2019) (attached hereto at
Attachment A). The time for filing a petition would thus expire on September 16, 2019
absent an extension. Consisten t with Rule 13.5, t his application has been filed at
least 10 days before t hat date. This Court h as jurisdiction over th e case under 28
U.S.C. § 1257(a).
2.

This case concerns an exceptionally important constitutional issue .

Applicant was cha rged and convicted of possession of child pornography after a
government-directed search of his laptop. In a fractured (4- 1-2) decision, t h e
Pennsylvania Supreme Court majority upheld the search under the "private-search"
doctrine . Relying on this Court's decision in United States v. Jacobsen, 466 U.S. 109
(1984), th e majority held that the government-directed search of Applicant's laptop
was not a "search" under t he Fourth Amendment because a repa ir technician h ad
previously searched Applicant's laptop and that initial "viewing of th e images
extinguished Appellant's reasonable expectation of privacy in the images of child
pornogr aphy." Shaffer, 209 A.3d at 973. The cour t t hus concluded th at the officer's
s ubsequent search ·'infringed upon no legitimate expectation of privacy a nd, hence,
were not a 'search' within the meaning of the Fourth Amendment ." I d. at 97 4.
Although Mr. Shaffer explicit ly argued that the officer's intrusion was a "search"
under th e property-based approach to the Fourth Am endment, see United States v.

Jones , 565 U.S. 400 (2012), t he court held Jones was "inapplicable" because it

2

involved only a government search, not a search t hat h ad also been "conducted by a
private individual." Shaffer, 209 A.3d at 976 n.l4. According to the Court, the
property-based approach thus did not alter its conclusion that the governmentdirected search was "not subject to the restrictions of the Fourth Amendment" under
Jacobsen. I d . at 976.
3.

Justice Wecht wrote separately to ·'note [his] disagreement with the

Majority's application of the private search doctrine." Shaffer, 209 A. 3d at 983. After
reviewing this Court's decision in Jacobsen , he expressed concern t hat the privatesearch doctrine "poses readily identifiable risks to an individual's right of privacy,
a nd entails a consider able potential for abuse" by "essentially plac[ing] t he state actor
behind private eyes, allowing a law enforcement officer to go whereve r a private
person before him has gone." Id . at 984. He explained the Supreme Court's decision
in Jacobsen was premised on "a virt ual certainty that nothing else of significance was
in the package," but "[t]he same cannot be said for a personal computer ," which
"contains a wealth of information, both private and public" and "offers virtually
limitless areas for explor ation." Id . at 984-85. In Justice Wecht's words: "if the
[package in Jacobsen] could be said to have an opposite, that opposite would be a
per sonal computer." Id.
4.

Applicant intends to file a petition for cert iorari asking this Court to

resolve important constitutional questions concerning (1) t he application of th e
private-search doctrine to t he tr aditional property-based approach to the Fourth

3

Amendment, recognized in United States v. Jones, 565 U .S. 400 (2012); a nd (2) t he
application of the private-sea rch doctrine to digital devices.
Applicant requests addition al t ime to file t he petition because he only

5.

just retained Amil· H . Ali to represent h im pro bono befor e t his Court . Mr. Ali was not
involved in t he trial or t he appellate proceedin gs t h at took place in Pennsylvania
state courts. He requires additional time to gather the relevant record materials for
the state court proceedings and to u nder take the research a nd a nalysis that aids this
Court in dete1·mining wh ether to add a case to its merits docket.
During the period of t he sou ght extension, Mr . Ali has previously

6.

scheduled fa mily vacations, from Au gust 26 through September 3, 20 19, a nd from
October 6 through October 13, 2019;
In addition, Mr. Ali has th e followin g substantial briefing deadlines and

7.

oral a rguments. These include:
•

A merits-stage a micus in this Court in McKinney v. Arizona, No. 181109, due August 28, 2019;

•

Oral argument in the U .S. Court of Appeals for the Third Circuit in
Jones v. Capozza, No. 18-0367 1, sch eduled for September 13, 2019;

•

A reply brief in the U .S. Court of Appeals fo r t he Third Circuit in Dooley
v. Wetzel , 19-1684, due September 19, 2019.

•

Or al argument in the U.S. Court of Appeals for t he Tent h Circuit in
Smart v. City of Wichita, No. 18-3242, scheduled for September 23,
2019;and

•

A petition for in t his Court in Morgan v. Washington, No. 19A119, due
October 13, 2019.

4

8.

Applicant has not previously sought an exte nsion of time from this

9.

For these reasons, Applicant respectfully requests that the time to file a

Court.

petition for a writ of certiorari be extended to a nd including October 16, 2019.

Respectfully submitted,

A.iVIIR H. ALI

Counsel of Record
RODERICK & SOLANGE
MACARTHUR J USTICE CEt-:TER

777 6th Street NW, 11t h Floor
Washington, DC 20001
(202) 869-3434
a mir .ali@macarth urjustice .org
Counsel for Applicant Jon E r·ic Shaffer

August 23, 2019

5

